9

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

April 15, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Jon Bryan v. Allied Pilots Association and American Airlines, Inc.

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on April 15, 2021,1 caused
service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020, on
the following counsel for the Respondents:
RESPONDENT ALLIED PILOTS
ASSOCIATION:
James P. Clark
Law Offices of James P. Clark, P.C.
256 Main Street
Suite 202
Northport, NY 11768
jim@jpclarklaw.com

RESPONDENT AMERICAN
AIRLINES, INC.:
Mark W. Robertson
Sloane Ackerman
OMelveny & Myers LLP
7 Times Square
New York, NY 10036
212-326-2000
mrobertson@omm.com
sackerman@omm.com

This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely.
Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
,
Notary Public
I State of Maryland
' Montgomery County
My commission exp. October 12,2022

Sworn and subscribed before me this 15th day of April 2021.

RECEIVED
APR 1 9 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

